<html>
<title> - UKRAINE UNDER SIEGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     UKRAINE UNDER SIEGE
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2015

                               __________

                           Serial No. 114-21

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Available via the World Wide Web: http://www.foreignaffairs.house.gov/or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
93-669                    WASHINGTON : 2015                      
                                 
_______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  
                                
                                 
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Victoria Nuland, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Victoria Nuland: Prepared statement................     9

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Statement by Ambassador of Ukraine Olexander Motsyk...    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    49


                          UKRAINE UNDER SIEGE

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. Ambassador Nuland, welcome.
    This hearing will come to order, and our topic today is 
    ``Ukraine Under Siege.'' And Ukraine is under siege by Russia 
at this moment, and unfortunately, the response to Russia's 
aggression by the administration has been quite tepid.
    A year ago, Russia invaded and seized Crimea, and some 
thought that Vladimir Putin would stop there. Not so. And last 
April, Ranking Member Eliot Engel and I led a delegation to 
Ukraine. We traveled to the Russian speaking-east. I think we 
had eight members on that delegation. We went into 
Dnepropetrovsk, which is bordering Luhansk and Donetsk.
    And I have to share with the members here that the many 
Ukrainians that--and these are Russian speaking Ukrainians in 
the far east that Mr. Engel and I met with, wanted to be 
Ukrainians. They did not want to be separatists.
    We spoke to the women's groups there, to the lawyers' 
groups, civil society, the Jewish group, various ethnic 
minorities, the governor, the mayor. At Passover, Mr. Engel 
spoke at the largest Jewish community center in Eastern Europe, 
the largest synagogue.
    And I can just share with the members here what--I'll 
attest to the attitude was--one of the thoughts shared with us 
is it seems that Russia has recruited every skinhead and every 
malcontent in the Russian speaking world and are trying to 
bring them into the east. And they said we are holding them in 
a brig here until hostilities are over, because we can spot 
them, but they are coming in from Russia in order to try to 
overthrow our Government.
    And so we have seen this situation where Moscow moved from 
annexing Crimea to aggressively supporting militant separatists 
in eastern Ukraine and indeed bringing Russian troops into the 
country. And Russia may now try to secure a land bridge to 
Crimea. That is the great concern here. That was the worry we 
heard that they would further expand this conflict; that they 
might try to seize the strategic port of Mariupol.
    Now when we talked to the U.N. agencies on the ground, they 
count over 6,000 civilians who have been killed in this 
conflict. There are 1.7 million Ukrainians that have now been 
made refugees. To date, the actions taken by the U.S. and our 
EU allies, including economic sanctions and aid and diplomatic 
isolation, have not checked Putin. Indeed over the past year he 
has become bolder, even menacing NATO countries as he seeks to 
divide the alliance.
    The Obama administration and our European allies have put 
hope in diplomatic and ceasefire arrangements, but it is not 
working. Last week, I met with the First Deputy Speaker of the 
Ukrainian Parliament who said that his country urgently needs 
anti-tank weapons such as the Javelin. He needs radar to 
pinpoint enemy fire in order to do the counter-battery work to 
suppress that artillery, and he needs communications equipment 
to overcome Russian jamming.
    Ukrainian forces cannot match the advanced equipment that 
Russia is pouring into eastern Ukraine. And by the way, when 
you see tanks come into eastern Ukraine those are not 
Ukrainians in those tanks. Those are Russians. There is no 
shortage of the will to fight, only a shortage of defensive 
weapons.
    But at the committee's hearing last week, Secretary Kerry 
said that President Obama has still not made a decision on 
whether to send defensive lethal military aid to Ukraine. Six 
months after President Poroshenko told a joint session of 
Congress in his words, ``One cannot win the war with 
blankets,'' it was not surprising, but still discouraging, to 
see him have to shop for defensive weapons, and unfortunately 
it has been very, very difficult for Ukraine to find any 
defensive weapons.
    And I was just as discouraged to read in this weekend's 
Wall Street Journal that U.S. intelligence sharing with Ukraine 
keeps Ukraine in the dark. Satellite images are delayed and 
obscured making them less useful. Frustrated, Ukraine is 
approaching other countries like Canada to share such 
information. This isn't U.S. leadership. Moscow is also 
undermining Ukraine's economy. Today Russia is using its 
natural gas and other energy sources for political coercion and 
to generate economic chaos in the country.
    Ukraine is facing an economic precipice. It desperately 
needs help. Meanwhile, Russia is winning the battle on the 
airwaves and they are doing it by broadcasting out conspiracy 
theories and propaganda. Anyone who has monitored what has been 
up on the air is well aware that this propaganda is offensive, 
is aimed at sowing confusion and undermining opposition to its 
aggression in Ukraine and elsewhere.
    But we are barely in the game of countering this with the 
facts. As I told the Secretary last week, I would like to see 
more administration support for the effort Mr. Engel and I have 
undertaken to reform our international broadcasting. The 
Broadcasting Board of Governors is broken. If we can't begin to 
change minds, then the struggle over Ukraine today will become 
a generational struggle for the future of Eastern Europe. 
Ukraine's fate has security implications for well beyond its 
borders.
    Now we passed this bill into the Senate last year. We were 
not able to bring it up and get it out of the Senate. We did 
not have the administration's support for it. But we have 
vetted this and have a great deal of support in this 
institution for getting back up on the air with Radio Free 
Europe, Radio Liberty type broadcasting that we did years ago 
to great effect with a message that will get the truth 
effectively into Eastern Europe and into Russia. It is time for 
strong and unwavering support of Ukraine. It is time for this 
right now, and many of these committee members on this 
committee, I believe, are concerned U.S. policy toward Ukraine 
may soon become, ``too little, too late.''
    And I now turn to the ranking member for opening remarks 
that Mr. Engel of New York might wish to make.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for calling this very timely and important hearing. At the 
outset I want to acknowledge the Ukrainian Days participants 
who are in the audience today.
    And Ambassador Nuland, welcome back. We thank you for 
testifying today. We thank you for your decades of service. And 
on a personal basis, let me also say that I have had to 
pleasure of working with you and I am a fan of your hard work, 
knowledge and tenacity. Thank you for all you do.
    In Ukraine, the events of the past year and the ongoing 
Russian aggression threatens the security and stability of the 
entire region and undermines decades of American commitment to 
and investment in a Europe that is whole, free and at peace. In 
fact this is a threat to the whole international order.
    So today we face grave questions. What can and should be 
done, and who should contribute to solving this problem? The 
United States is providing substantial assistance to the 
Government of Ukraine including billions of dollars in loan 
guarantees and non-lethal military aid. We have also imposed 
significant sanctions on Russia. We have sanctioned officials 
supporting Russia's aggression in Ukraine and targeted key 
sectors of the Russian economy. And we have seen results. 
Russia's economy has been taking on water, and this has only 
been magnified by the recent dip in oil prices.
    These policies are good, but only up to a point. They don't 
go far enough, in my opinion. Russia's military gains in 
Ukraine have slowed, but Putin continues to grab land along the 
line of contact in violation of the Minsk ceasefire agreement, 
which mandates that Russian supported rebels pull back their 
forces.
    The government in Kyiv is committed to reform, but leaders 
there struggle every day to preserve Ukrainian sovereignty. And 
while our financial assistance has kept Ukraine's economy 
afloat, they still confront a bleak economic outlook and the 
risks of a financial meltdown loom large.
    Now when Ukraine gave up its nuclear arsenal in 1994, the 
United States made a commitment to help protect Ukrainian 
territorial integrity. That commitment was also made by Russia, 
U.K., China, other countries as well, but now our commitment is 
being tested. Let me also say that I think NATO made a grave 
mistake in 2008 when it refused to admit Ukraine and Georgia 
into NATO. I know that Germany and France resisted. The United 
States tried to push it. I didn't work. And I think we are 
paying the price today. I don't think that Putin would have 
been as aggressive if Ukraine was a part of NATO.
    So last month I met with President Poroshenko. Met with him 
in Europe. His request was simple. Provide Ukraine with key 
weapons and military technology to defend itself. Specifically, 
Ukraine needs light anti-tank missiles to protect itself 
against rebels attacking with heavy, Russian supplied armor, 
not to evict the thousands of Russian troops inside Ukrainian 
borders. Ukraine needs longer range counter-battery radars to 
pinpoint attacking artillery and tanks, not to win a protracted 
war against Russia's military. And Ukraine needs better 
communications technology to deal with Russian efforts to jam 
their signals, not to advance on Moscow.
    I was laughing when at that conference in Munich, Madam 
Secretary, you and I both attended, to hear the Russian Foreign 
Minister denying that Russian troops were in Ukraine, saying it 
was just Ukrainian rebels. Lies, lies and more lies.
    I have spoken on the House floor calling on our Government 
to supply defensive weapons to Ukraine.
    So Mr. Chairman, and I know you agree with me, Ukraine is 
not going to win a war against Russia, but it can impose a 
greater cost on Vladimir Putin's aggression and slow Russia's 
advances. And it has a chance to remain on its feet when all is 
said and done if it can impose a greater cost on Putin's 
aggression and slow Russia's advances.
    Yet for nearly a year, the administration along with the 
vast majority of our European allies has resisted providing 
such assistance. Now to be sure, there are risks involved but 
there are also risks in allowing Putin to continue his 
aggression in Ukraine and to threaten other peaceful neighbors 
on Russia's periphery. And if Russia's aggressive pressure on 
the West reach the frontiers of our NATO allies, the dangers to 
Europe increase tremendously; the dangers to the NATO alliance 
increase tremendously.
    In December, Congress unanimously passed the Ukraine 
Freedom Support Act. This legislation authorized the provision 
of lethal defensive aid. I was proud to lead House efforts to 
pass this legislation and happy that President Obama signed it. 
But I have been disappointed that the administration has not 
used any of the tools provided in this law.
    It is time to ask the hard question. Are we willing to 
stand up to Vladimir Putin's aggression before he kills more 
people, does more economic damage, further destabilizes Europe 
and threatens our NATO allies? Or are the risks just so great 
that we will simply cut our losses? As time passes, our options 
grow fewer and less effective. That is why I am announcing 
today my plan to introduce new legislation. It will offer 
Ukraine greater assistance on a variety of fronts. It will dial 
up the pressure on Vladimir Putin for his reckless, destructive 
and destabilizing policies, and it will send a clear message 
that the United States stands with the people of Ukraine 
against Russian aggression. I look forward to working with 
Chairman Royce and other colleagues as we move ahead with this 
effort.
    And finally, let me just add that our European allies need 
to confront these same questions of strategy and political 
will. In my view, wealthy countries such as Germany, France and 
others have a lot more skin in the game economically and 
strategically. They should be doing more to assist Ukraine on 
the economic front as they seem even less willing than we are 
to provide needed military assistance. They should double down, 
dig deep, and ensure Ukraine does not endure a financial 
meltdown. This would be a win-win, keeping Ukraine solvent and 
preventing an even greater catastrophe on the EU's borders. The 
people of Ukraine are watching, the government in Kyiv is 
watching, and the whole world is watching. We cannot sit idly 
by and allow Putin to continue his aggression.
    So again Ambassador Nuland, thank you for appearing here 
today and I look forward to your testimony.
    Chairman Royce. So this morning we are very pleased to be 
joined by Ambassador Victoria Nuland. And before assuming her 
position as Assistant Secretary for the Bureau of European and 
Eurasian Affairs with the Department of State, Ambassador 
Nuland served as the Department of State's spokesperson. She 
also served as the United States Permanent Representative to 
the North Atlantic Treaty Organization from 2005 to 2008, and 
she focused heavily on NATO-Russia issues during that period of 
time.
    And without objection, the witness's full prepared 
statement is going to be made part of the record. Members will 
have 5 calendar days to submit any statements to the committee, 
any questions and extraneous materials for the record which we 
will ask the Ambassador to respond to in writing.
    So we would ask, Ambassador, if you would please summarize 
your remarks and then we will go to questions.

     STATEMENT OF THE HONORABLE VICTORIA NULAND, ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Nuland. Thank you very much, Chairman Royce, 
Ranking Member Engel, members of this committee, for having me 
back today to speak about the situation in Ukraine and for your 
personal investment in that country's future.
    Let me also take this opportunity to say that we share this 
committee's sadness and outrage over the murder of freedom 
fighter and Russian patriot and friend to many of us, Boris 
Nemtsov. The outpouring of concern from Congress again 
demonstrates bipartisan U.S. respect for those in Russia and 
across the region who are working for reform, clean government, 
justice and dignity.
    Today Ukraine is central to our 25-year effort for a ``Europe 
    whole, free and at peace.'' With your permission, I 
would like to focus on three areas in particular today. First, 
on the hard work that Ukraine is doing with U.S. and 
international support to build a more democratic, independent 
and European country.
    Second, I will address both the opportunity that Russia has 
to implement the February and September Minsk agreements as 
well as the further costs that the United States and our 
European allies will have to impose if Minsk is further 
violated. And finally, I will touch very briefly on three other 
new threats to European security that we are working on--energy 
vulnerability, corruption and propaganda, as noted by the 
chairman--that the Ukraine conflict also brings into high 
relief and all we are doing on them.
    First, a quick reminder of why we are here. Fourteen months 
ago, the Kyiv Maidan and towns across Ukraine erupted in 
peaceful protest by ordinary Ukrainians who were fed up with 
the sleazy, corrupt regime that was bent on cheating its people 
of their democratic choice for a more European future. They 
braved frigid temperatures, brutal beatings and sniper bullets. 
Ultimately the leader of that rotten regime fled the country, 
and then he was voted out by the Parliament including most 
members of his own party. And then Ukraine began to forge a new 
nation on its own terms.
    I want to take a small opportunity here to highlight the 
very hard work that your counterparts in the new Ukrainian Rada 
have undertaken just since they were seated in November. The 
Rada has been a beehive of activity, passing laws to tackle 
corruption in the public and private sector; to reduce 
government inefficiency; to strengthen the banking system; to 
clean up the energy sector; to establish a new police service; 
to improve the climate for business and attract new investment.
    It has also been moving forward on political 
decentralization to give the Ukrainian regions more authority 
in advance of local elections. These reforms have been 
politically difficult, but they will also stabilize the 
economy, and we are seeing the hryvnia start to stabilize even 
today. And they will also support the swift disbursement of IMF 
and other international donor support. I can ask you only to 
imagine what it would have been like if you had been asked to 
pass that much legislation that quickly and that painfully.
    As Ukraine has stood up, the United States and our European 
allies and partners have stood with her. This past year, the 
United States provided almost $355 million in foreign 
assistance to strengthen energy assistance to aid Ukraine's 
poorest citizens as gas costs rise; to help fight corruption; 
to strengthen the Ukrainian border guard and its military, 
a deg.$118 million in security support alone; and to 
support political reforms, elections and clean government.
    And there is more on the way. As Secretary Kerry testified 
last week, the President's budget includes an FY16 request of 
$513.5 million, almost six times more than our FY14 request, to 
build on these efforts. Today we are working with Europe, the 
Ukrainians and the IMF to strengthen the country's economy and 
support the government's reform plan, particularly in 
implementing this package of legislation, including a new $1-
billion U.S. loan guarantee and up to another $1 billion later 
in 2015, if you and we agree that the conditions warrant and if 
Ukraine is able to meet its reform targets.
    This brings me to my second point. Even as Ukraine has 
begun building a peaceful, democratic, independent nation 
across 94 percent of its territory, Crimea and eastern Ukraine 
have suffered a reign of terror. Today, Crimea remains under 
illegal annexation and human rights abuses are the norm, not 
the exception, for Crimea's most vulnerable populations, 
especially Crimean Tatars, Ukrainians who won't give up their 
passports, and for LGBT citizens.
    In eastern Ukraine, Russia and its separatist puppets have 
unleashed unspeakable violence and pillage. Hundreds and 
hundreds of Russian heavy weapons and troops have poured across 
the border; a commercial airliner was shot down this summer; 
Donetsk airport was obliterated; Ukrainian pilot Nadiya 
Savchenko languishes in a Moscow jail on day 82 of her hunger 
strike; and the city of Debal'tseve, outside the Minsk 
ceasefire lines, fell to separatists 6 days after the February 
12th Minsk Agreement was signed. Overall, as you have said Mr. 
Chairman, 1.7 million Ukrainians have been forced out of their 
homes and over 6,000 have lost their lives.
    The United States and the EU have worked in lock-step to 
impose successive rounds of tough sanctions including deep 
sectoral sanctions on Russia and its separatist cronies as the 
costs for these actions, and those sanctions are biting deeply 
on the Russian economy. Our unity with Europe with regard to 
Ukraine remains the cornerstone of our policy toward this 
crisis and a fundamental element of our strength in standing up 
to Russian aggression.
    It is in that spirit that we salute the efforts of German 
Chancellor Merkel and French President Hollande in Minsk on 
February 12th to try again with President Poroshenko and 
President Putin to end the fighting in Ukraine's east. The 
Minsk agreements of September 5th and September 19th, and the 
February 12th implementing agreement, offer the promise of 
peace, disarmament, political normalization and 
decentralization in eastern Ukraine, and along with them the 
return of Ukraine's state sovereignty and border control in the 
east. For some in Ukraine, conditions have already begun to 
improve since February 12th. In parts of the east, the guns 
have been silenced and the OSCE has begun to gain access. But 
the picture is very, very mixed.
    And just today we have OSCE reports of new heavy shelling 
from separatist positions around the Donetsk airport and in the 
towns outside Mariupol, particularly the strategically 
important town of Shyrokyne; and we have reports of a new 17th 
Russian convoy going over the border from Russia into Ukraine 
with no opportunity for Ukraine or the ICRC to inspect that 
convoy. And we all know what they have contained in the past.
    So in the coming days, here is what we and our 
international partners have to see. We need to see a complete 
ceasefire all along the ceasefire line in eastern Ukraine. We 
have to see full, unfettered access to the whole zone for OCSE 
monitors. And we have to see a full pullback of all heavy 
weapons as stipulated in the agreement.
    If fully implemented, these steps will bring peace to 
eastern Ukraine for the first time in almost a year, and they 
will also allow for the implementation of the follow-on steps 
of Minsk, namely, access for Ukraine to its citizens in the 
east so they can begin a political dialogue; they can begin 
real work with their own population and eventually so we can 
see that international border closed.
    As we have long said, the United States will start to roll 
back sanctions on Russia when the Minsk agreements are fully 
implemented, and so will our European partners. But as the 
President has also said, we will judge Russia by its actions 
not its words. And we have already begun, this week, intensive 
consultations with our European partners on further sanctions 
pressure should Russia continue fueling the fire in the east of 
Ukraine or in other parts of the country, fail to implement 
Minsk, or grab more land as we saw in Debal'tseve.
    Finally, just a quick note to remind that traditional 
military force is only one of the threats to European security 
that we are working on. There are others including energy 
dependence from a single, unreliable source; the cancer of 
corruption; and the Kremlin's pervasive propaganda campaign 
where truth is no obstacle. We are working across all those 
fronts to harden European resilience to these new threats.
    Just briefly, and there is more in my longer statement. On 
energy security, project by project, we are working with the EU 
and key countries to change Europe's energy landscape and to 
make it more secure, resilient and diverse. On corruption, we 
are working with governments, civil society and the business 
community, particularly across central and Eastern Europe and 
the Balkans, to close the space for dirty money to go in and 
undercut democratic institutions and pervert the business 
environment.
    And on Russia's propaganda, we are working with the 
Broadcast Board of Governors to ramp up efforts to counter lies 
with truth. We are also requesting more than $20 million in 
foreign assistance and public diplomacy funds for State 
Department programs to counter Russian propaganda.
    Mr. Chairman, Mr. Ranking Member, members of this 
committee, America's investment in Ukraine is about far more 
than protecting the choice of a single democratic European 
country. It is about protecting the rules-based system across 
Europe and globally, and it is about saying no to borders 
changed by force, to big countries intimidating small, and to 
demanding spheres of influence. It is also as you said, Mr. 
Chairman and Mr. Ranking Member, about protecting the promise 
of a Europe whole, free, and at peace. I thank each of you and 
I thank this committee as a whole for its bipartisan support 
and commitment to these policies. Thank you very much. I look 
forward to your questions.
    [The prepared statement of Ambassador Nuland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                
                              ----------                              

    Chairman Royce. Thank you, Ambassador Nuland.
    As I mentioned in my opening statement, I do have concerns 
that our intelligence sharing is really in name only when it 
comes to Ukraine. And I know we can't get into great details 
here on this, but do you believe our intelligence sharing with 
the Ukrainians is robust enough for them to protect themselves? 
Because we get the information from them about the struggle 
they are having. We know the Canadians are trying to assist 
them in this, but at the end of the day they have got to 
prevail against these Russian backed rebel forces and Russian 
forces that are on their territory now with tanks.
    Ambassador Nuland. Mr. Chairman, in this unclassified 
setting let me simply say that our intelligence cooperation 
with Ukraine as well as with the Ukrainian intelligence 
services and armed forces has been improving over time. There 
are certain constraints as you know, but we are continuing to 
look at what more we can do in a manner that protects our own 
assets and that we are sure will be used properly.
    Chairman Royce. And let me ask you another question. 
Because I noticed from the head of NATO to the Director of 
National Intelligence to the new Defense Secretary, it seems 
like nearly every U.S. official supports providing defensive 
weapons to the Ukrainians. And indeed a letter from many 
Members of Congress including myself, Mr. Engel, the Speaker, 
will soon go to the President on this subject. Where are we on 
this decision? Because President Poroshenko continues his 
appeal to us obviously.
    Ambassador Nuland. Thank you, Mr. Chairman. As I mentioned 
in my testimony, as you know we have provided $118 million in 
security and border assistance to date. This is all in the 
defensive non-lethal area, but some of it is on the high end of 
defensive including the very important counterfire radar 
batteries that we were able to provide just over the last few 
months, which Ukrainians report to us have saved lives 
particularly in the most intensive conflicts around Donetsk 
airports and Debal'tseve.
    With regard to the question of providing more lethal 
assistance, as my Secretary, Secretary Kerry, testified last 
week, that question is still under discussion and the President 
has not made a decision.
    Chairman Royce. But I want to get back to this issue of 
Russian tanks that are firing on cities and on Ukrainian 
positions. If they cannot get precision anti-tank missiles or 
weapons to use on the ground, there isn't the capability to 
stop those tanks.
    And we are not talking about transferring offensive 
weaponry like tanks or selling those to Ukraine. What we are 
talking about are weapons that are purely defensive but are 
absolutely necessary if there is going to be any credible 
deterrents to what the Russians are doing town by town now in 
the east. The request here isn't for more blankets or meals. I 
saw the inventory of what we have sent them. What they are 
requesting is quite precise--defensive weaponry that will allow 
them to hold their positions.
    Ambassador Nuland. Well, Mr. Chairman, as I said these 
issues are still under review including the types of equipment 
that you note which would respond directly to some of the 
Russian supply. Just to state for the record here, some of what 
we are seeing we have since December seen Russia transfer 
hundreds of pieces of military equipment to pro-Russian 
separatists, tanks, armored vehicles, rocket systems, heavy 
artillery.
    Chairman Royce. And part of the point that I am making is 
that this is not all being transferred to Russian separatists. 
There is no way that separatists are in those tanks. They are 
not the tankers. They are not driving those tanks. Those are 
Russian soldiers driving those tanks. And I would just make the 
point to not decide is to decide.
    Ambassador Nuland. Understood.
    Chairman Royce. And that is the point we have made.
    Lastly, per your observation on the broadcasting I just 
wanted to make the point in terms of the dysfunction. 
Yesterday, it was reported that the new CEO of the agency Andy 
Lack, in terms of the BBG, is resigning his post after 6 weeks 
on the job. Now we know, we know the problems that staff and 
others have had over at the BBG. We have heard from our former 
Secretary of State, Secretary Clinton, that the agency is 
defunct. It is defunct.
    Myself and Ranking Member Eliot Engel and other members of 
this committee put a lot of time and effort working with those 
who have a very real interest in reforming this, getting a 
consensus. That legislation is necessary to get this agency 
back up to the business that it did very well in the 1980s in 
terms of disseminating information into Russia and into Eastern 
Europe. That legislation needs to have support from the 
administration, and I would just leave you with that request, 
Ambassador.
    Ambassador Nuland. May I just quickly----
    Chairman Royce. Yes.
    Ambassador Nuland [continuing]. Respond? As you know, as 
Secretary Kerry said, we do join you in supporting reform of 
the BBG. We are working with you on that. We have some 
differences, slight, with your proposed legislation. But I do 
want to do a shout-out to BBG and its affiliates for the work 
that they have been doing over the last year to counter Russian 
propaganda and particularly to support broadcasting in Ukraine. 
They have devoted $22.6 million to Russian language 
programming, a 104-percent increase over Maidan spending. RFE, 
RL, and VOA have now launched a half hour, new Russian language 
program, current time, which helps fill the gap in clean news. 
It is being pulled down by broadcasters all across the 
periphery of Russia and parts of the Russian speaking 
populations in Ukraine are also receiving it, and they are now 
reaching about 6.6 million viewers. So they have been good 
partners to us, and our budget requests supports doing more 
together.
    Chairman Royce. We follow that very closely.
    Ambassador Nuland. Good.
    Chairman Royce. And we also are in consultation with those 
in theater about the effectiveness. And trust us when we say 
reforming the BBG is necessary at this time. We have to be able 
to take some decisive actions to get this back up and running 
the way it worked effectively in the 1980s.
    And I am going to go to Mr. Engel of New York, the ranking 
member of this committee, for his questions. Thank you.
    Mr. Engel. Thank you, Mr. Chairman. And Madam Secretary, 
let me also put my weight behind what our chairman has said. I 
agree with every word he said. I want to read you the first 
part of a report put out by Radio Free Europe and Radio Liberty 
yesterday, and I would like you to comment on 
it.Edited per article deg.

          ``U.S. Commander Says Some 12,000 Russian Soldiers In 
        Eastern Ukraine. The U.S. military estimates some 
        12,000 Russian soldiers are supporting pro-Moscow 
        separatists in eastern Ukraine. U.S. Army Europe 
        Commander Ben Hodges said the Russian forces are made 
        up of military advisers, weapons operators and combat 
        troops. Hodges also said some 29,000 Russian troops are 
        in Crimea, which Moscow annexed from Ukraine last year.
          ``Hodges said in Berlin on March 3 that helping 
        Ukraine with weapons would increase the stakes for 
        Russian President Vladimir Putin at home. He added that 
        `when mothers start seeing sons come home dead, when 
        that price goes up, then that domestic support [for 
        Putin] begins to shrink.' Hodges said what Ukraine 
        wants `is intelligence, counterfire capability and 
        something that can stop a Russian tank.'
          ``The White House still hasn't decided whether to 
        send arms to Ukraine, and Hodges reiterated Washington 
        wanted a diplomatic solution. Hodges also said U.S. 
        plans to train three Ukrainian battalions have been put 
        on hold to see if a cease-fire deal forged last month 
        in the Belarusian capital Minsk will be fully 
        implemented. General Martin Dempsey, chairman of the 
        U.S. Joint Chiefs of Staff, also voiced support for 
        arming Ukraine on March 3.
          ``Speaking before the Senate Armed Services 
        Committee, Dempsey said Washington `should absolutely 
        consider' providing Kyiv with arms through NATO. 
        Dempsey said Putin's ultimate goal was to fracture 
        NATO.''

And I would add to that to destabilize Ukraine.

        "Meanwhile, U.S. President Barack Obama and European 
        leaders have agreed that a `strong reaction' would be 
        necessary if the Minsk cease-fire agreement is 
        violated.''

    It is almost like when I was a little boy, and Gary 
Ackerman used to tell this story too. That his mother would 
tell him to do something and she would say, I am going to count 
to three and you better have this done when it is three. And 
she would go one, two, and then two and a quarter, two and a 
half, two and three quarters, and she would give it more and 
more time.
    That seems to me what we are doing. We are so waiting and 
hoping that things happen that Putin, really, in my opinion, 
just looks at this as a sign of weakness. And I think the 
strongest thing that we can do now is to provide Kyiv with 
defensive lethal weapons.
    Ambassador Nuland. Well, thank you, Mr. Ranking Member. 
Obviously this hearing gives us an opportunity for all of you 
on both sides of the aisle to register your views on this 
important subject. I would say as I said in my testimony that 
we are watching very intensively whether or not the Minsk 
agreements are implemented.
    I cited some concerns already today following on the 
vicious taking of Debal'tseve. And, as I said, we have other 
tools in our arsenal including deepening of the sectoral 
sanctions and we are in consultation with our allies now on how 
that would go if we see more violations.
    Mr. Engel. In your written testimony, Ambassador, in your 
written statement you mentioned, and I am quoting you, ``In the 
coming days, not weeks or months, we need to see full, 
unfettered access to the whole conflict zone including all 
separatist held territory for OSCE monitors.'' Does this 
include territory along the border with Russia and will we 
press for OSCE's ability to inspect the so-called humanitarian 
convoys regularly entering Ukraine from Russia?
    Ambassador Nuland. We have been pressing for that in 
particular at the two border posts that OSCE has been able to 
monitor on the border. Unfortunately, these convoys seem to 
find roads ten kilometers north or ten kilometers south of 
where the OSCE monitors are and just wing right by.
    But yes, the Minsk implementation agreement of February 
12th calls in the first instance for monitoring and 
verification of ceasefire along the internal line as well as 
these pullbacks of heavy weapons. What is required by the 
agreement is not simply to see tanks and artillery pieces on 
roads moving back but to be able to count them; to be able to 
see them in permanent storage; to be able to come back on a 
regular basis to ensure that they haven't moved or been 
redeployed elsewhere; but also eventually to be able to have 
access to the entire special status area. And that will 
certainly be necessary if the political pieces of Minsk are to 
be implemented, new elections, et cetera, so that we can be 
sure that they are free and fair and that ODIHR and other OSCE 
elements can get in.
    Mr. Engel. And let me just ask you one final question. I am 
really concerned that the Minsk implementation agreement does 
not provide Ukraine control over its own border with Russia 
until the end of this year following Constitution reform in 
Ukraine that is acceptable to Russia. Can you allay my fears 
and help me to make sense of this?
    Ambassador Nuland. Well, you are correct, Mr. Ranking 
Member, that the way the implementation agreement was sequenced 
on February 12th restoring Ukrainian sovereignty on the eastern 
border is the last item and it doesn't happen until the end of 
2015. But, as I said in my statement, we are also firm with our 
allies and partners that that means we will not be rolling back 
sanctions on Russia until Minsk is fully implemented. So that 
is part of what we have.
    Now the Ukrainians, as you know, are in the process of 
working intensively to reform the Constitution. The Rada has 
taken new steps to accelerate that work including this bill 
that I mentioned to provide greater powers to the regions, even 
in advance, to all the regions of Ukraine even in advance of 
constitutional reform. So we are cautiously optimistic that 
with European and U.S. help, there will be constitutional 
reform in Ukraine in 2015 that will meet the standards and we 
will see whether the separatists are willing to work with the 
government and whether we actually have elections and new 
eastern Ukrainian authorities who can work on decentralization 
there.
    Mr. Engel. Well, thank you. I think you hear my 
frustrations, the chairman's frustrations, but thank you 
personally for your hard work and your good work. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, Mr. 
Engel. I will recognize myself.
    And Madam Ambassador, many members of our committee will 
continue to hammer the Obama administration on this damaging 
and unnecessary and senseless delay in providing the lethal aid 
that Ukraine so desperately needs, so you will continue to hear 
this line of questioning. Because despite this fragile 
ceasefire, Ukraine continues to suffer casualties at the hands 
of separatists backed by Moscow, and the Ukraine Government 
fears that Putin's thugs are simply using this opportunity, 
this ceasefire, to regroup their forces in preparation of yet 
another offensive.
    Ukraine is in such tragic need of lethal aid from the U.S., 
and as you have heard both the head of our nation's 
intelligence community and the head of our Defense Department 
agree. Yet just last week Secretary Kerry testified before our 
committee as you have heard from the chairman and the ranking 
member that no decision on lethal aid has been made yet. And so 
we ask and continue to ask what is the hold up? Our allies need 
our assistance now. Enough with the excuses.
    So in what part of the interagency process is the decision 
on lethal aid for Ukraine currently stalled? Does the State 
Department believe that the United States should send lethal 
aid to Ukraine, yes or no? And you said that the President has 
not made a decision yet, but you didn't say what you believe 
and what the State Department believes, and I would like to 
hear that.
    Also the Magnitsky Act and that list, the tragic murder a 
few days ago of the Russian opposition leader came just days as 
we know as he was about to publish evidence of the Russian 
military in Ukraine. Has his murder been sanctioned as human 
rights violators under the Magnitsky Act? And can you give us 
an update on the progress or lack thereof of adding names on 
that Magnitsky Act so we can sanction those violators?
    And also Secretary Kerry has said that the Russian Foreign 
Minister lied to his face about Russian involvement in Ukraine. 
What is the extent of Russian involvement? Are Russian soldiers 
in Ukraine? Are we prepared to say that participating in the 
conflict?
    And on the 123 Agreement, and I will ask you to give me 
written responses to these because there is a series of 
questions. I have been advocating for the administration to 
withdraw from the U.S.-Russia nuclear cooperation agreement, 
the 123 Agreement, to prevent the potential future use of U.S. 
nuclear technology and assistance against our own interests. 
And given Putin's continued aggression, will the administration 
suspend the Russia 123 Agreement?
    And lastly, I have been critical of how the administration 
plans on using funds to promote democracy and human rights in 
Russia especially after 2012 when Putin kicked out USAID from 
Russia. Please update the committee on what the administration 
plans to do with that money that has been left over from the 
U.S.-Russia investment fund.
    Ambassador Nuland. That is a lot, Congresswoman. Let me go 
through them quickly. And thank you for letting me take the 123 
question in writing because I want to make sure our agencies 
get it right for you.
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Nuland. With regard to the process, the 
President did ask covenant agencies for recommendations and 
advice. Those recommendations and advice have gone forward to 
him. I think you will forgive me if I take the same position my 
Secretary took when he was here that we will provide that 
advice confidentially and I will decline to speak to it in an 
open hearing.
    With regard to the brutal murder of Boris Nemtsov, I think 
you know that before this we had met our annual statutory 
requirement to provide more names under the Magnitsky 
legislation, but that was of course before this event. So as we 
look at our list at the end of this year we will see what we 
can learn about who the perpetrators are. We have made 
absolutely clear publicly and privately to the Russian 
Federation that the international community will expect an 
investigation that meets international standards, and that 
finds not only the shooter but the orderer of the murderer.
    Ms. Ros-Lehtinen. And not headed by Putin, heading the 
investigation. I know my time is expiring, but if we were to 
add, aggressively add more names to that list of human rights 
violators I think we would see a change. And Russia knows that 
we are not serious about implementing that legislation. But I 
would love to get the answers to my questions in writing. Thank 
you, Madam Ambassador.
    And we will go to Brad Sherman of California.
    Mr. Sherman. Ambassador, one thing I noticed about your 
opening statement was your lavish praise for the Ukrainian 
Parliament passing so much substantive legislation and you 
compared it to Congress.
    Ambassador Nuland. I didn't compare it----
    Mr. Sherman. I would just note for the record, and maybe it 
wasn't a comparison but came very close, that every day someone 
in the administration urges me to work hard to block 
legislation they don't like. And 99 percent of the bills that 
the administration does not want on the President's desk are 
not there due to the hard work of your allies here in Congress. 
So if you want lots of legislation passed, be sure that that is 
a consistent view of the administration.
    Now many of my colleagues at the beginning talked about how 
we need a strong policy and who would come here and advocate a 
weak policy, but we do need to put this Ukrainian situation in 
context. America has limited power and we seem to face 
unlimited challenges--Iran, ISIS, China in the South China Sea, 
the Afghanistan, some difficulties in Pakistan. So we have to 
go with strength and nuance, although frankly I think in this 
case we need a little bit more strength, a little bit less 
nuance.
    There is talk about capturing Mariupol and then going and 
building a land bridge to Crimea. My concern is they will want 
to build a land bridge to Trans-Dniester or Moldova and take 
all of Ukraine's coastal territory and access to the Black Sea.
    A lot of discussion of whether we should provide lethal 
weapons, albeit defensive lethal weapons to Ukraine, and such 
lethal aid would have an effect on the battlefield but also a 
political effect. These aren't weapons they are getting their 
hands on from Paraguay. These are weapons from the world's 
superpower. We can give Ukraine money or we could give them 
weapons. If they had money they could buy weapons. If the 
Ukrainian Government had sufficient money is there anything, 
looking at the defensive weapons that are being discussed, that 
they could not buy from some source? So the real question here 
is can we have the battlefield effects suggested by my 
colleagues by providing money?
    Ambassador Nuland. First of all, Congressman, I certainly 
didn't mean any invidious comparison. I was simply giving props 
to these legislators who have taken some tough decisions.
    Mr. Sherman. I understand. I understand.
    Ambassador Nuland. Please.
    Mr. Sherman. Yes.
    Ambassador Nuland. With regard to your concern about a race 
all along the southern rim of Ukrainian territory, not only a 
land bridge to Crimea but onward to Moldova, we worry about 
that, too. That is why we are paying such close attention today 
to these villages between the ceasefire line and the----
    Mr. Sherman. If you could focus on the question I asked.
    Ambassador Nuland. Exactly. With regard to what one can buy 
on the international market, a number of the things that the 
Ukrainians have requested are not readily available unless the 
U.S. were to license onward export. And we have a number of 
countries including our allies----
    Mr. Sherman. We are just talking anti-tank weapons. I mean 
I see those in the World War II movies.
    Ambassador Nuland. They have also been out shopping on the 
world market and have had a lot of difficulty getting countries 
to provide in the absence of the U.S. providing.
    Mr. Sherman. And yet our enemies turn money into weapons 
with great ease. You mentioned the importance of--if we can 
have order in the committee. You mentioned the regions and 
devolving power to the regions. That is controversial in Kyiv, 
and yet if power is devolved to the regions that undercuts 
Russian propaganda. It creates more support for a Ukrainian 
state.
    Is it true that under the present Constitution the governor 
of each state is appointed by Kyiv? I know we have some 
gentlemen here from Texas who are wondering whether President 
Obama will appoint their governor. I don't think that would be 
a way to be popular in Texas. Have the Ukrainians changed their 
system so each region can elect its own governor?
    Ambassador Nuland. Congressman, that is one of the issues 
that is going to be debated as they move through constitutional 
reform. As you know, their system is very similar to the system 
in Russia and other post-Soviet states where the executive is 
appointed and the Parliament is elected locally. But on this 
issue of decentralization--just to say that it is actually 
broadly popular across Ukraine, not just in the east. One of 
the ways that the oligarchs in power in Kyiv manage things--and 
that Moscow was able to help them manage things--was because 
everything was centralized. So there is broad support for 
decentralizing budget authority, tax authority, local policing, 
all these kinds of things, and I think you will see that.
    Mr. Sherman. And hopefully electing your own governor would 
be part of that. Because our friends in Kyiv need to help 
themselves, not just ask for our help, and they could help 
themselves a lot by countering that Russian propaganda.
    I yield back.
    Chairman Royce. We go now to Mr. Chris Smith of New Jersey, 
chairman of the Africa, Global Health, Global Human Rights, and 
International Organizations Subcommittee.
    Mr. Smith of New Jersey. And welcome Madam Ambassador. Just 
a couple of points. First of all, I do believe delay is denial 
and I think we have a de facto defensive weapons arms embargo 
on Ukraine. And it is reminiscent to me at least and perhaps 
many others to the Balkans War when we in a totally misguided 
fashion ensured that Bosnia and the Croats, the Croatians, did 
not have the ability to defend themselves against Milosevic's 
aggression, and now we see a reprise of that happening to our 
good friend and ally Ukraine.
    When you get the Secretary of Defense Ash Carter, James 
Clapper, and as one of my colleagues already mentioned and I 
have read his speech and it is an excellent speech that was 
given by our top military commander, Lieutenant General Ben 
Hodges, he has made a number of important points, I think, in 
his speech, perhaps chief of which is that while Ukraine's 
defensive capability might not necessarily turn the tide 
overnight or soon, when it comes to the military situation it 
will make the diplomatic solution more probable.
    And that is exactly what happened as we all know when the 
Croats broke the arms embargo. It wasn't NATO bombing that 
initially turned it all, it was the Croatians were able to 
break the arms embargo and put Milosevic to flight. And I think 
the Ukrainians are waiting for the kind of ability to defend 
themselves.
    The President's advisors are all saying do it Mr. 
President, and he has refrained from doing it. It is baffling. 
When you get two world leaders between September and yesterday 
publicly admonishing President Obama in joint sessions of 
Congress, it is time to wake up, I believe, respectfully, and 
take their views into much greater account.
    As my colleagues have said, and I believe it as well, delay 
is denial. People are dying. Over 6,000 are dead. Many of those 
are children and women. And I do think it may even be speak 
another issue and that is the hollowness of our military 
increasingly. We are not there yet, thank God, but we are on a 
glide slope to being weakened because of defense spending.
    But as General Hodges pointed out, Germany, and we know 
Angela Merkel has admonished not to go with the military 
defensive capability, only 42 of Germany's 106 Typhoon fighters 
are available because of maintenance, 38 of its 89 Tornado 
bombers. Special forces had to pull out of the joint exercise 
because there was no working helicopter. A hollow force is an 
engraved invitation to Vladimir Putin to continue his 
aggressive ways, so I think the alliance itself and the United 
States needs to step up and help the Ukrainians.
    I was in Europe 2 weeks ago for an OSCE winter meeting, and 
the Ukrainians, and while they don't want to say this publicly, 
just like Netanyahu was effusive in the opening speech, part of 
his speech with praise for Obama, they don't want to say it 
publicly, they need us. So they have to tread lightly and walk 
on eggshells.
    But they told me off the record how profoundly disappointed 
they are in President Obama especially in light of people 
around him saying please Mr. President, this is a time for 
American leadership. So when will that decision be made? The 
pipeline took 6 years and then finally we found out where the 
President really stood when he vetoed the bill for the Keystone 
Pipeline. What, is it next week? Is it tomorrow? There is 
statements by Poroshenko today admonishing the, and it is right 
from our Embassy, admonishing the European Union not to be 
premature, his word, in being optimistic about where Minsk II 
is taking us.
    And again there are also parallels that I thank God for the 
452 OSCE monitors that are on the ground doing wonderful work, 
but it is reminiscent again of what happened in Croatia and 
Bosnia when the European monitors were there. And I remember 
meeting with them with their white suits on and scorepads. How 
many people are being killed? How many are being raped? It was 
horrible stuff and they were brave as could be, no weapons, 
while the OSCE monitors are in that same boat. They need 
defensive weapons and they need them now.
    Yield. The answer tomorrow maybe are we going to find out 
from the President? Delay is denial.
    Ambassador Nuland. Thank you, Congressman. I think as you 
heard in my opening statement, we are watching the 
implementation of Minsk. We do have concerns now about new 
firing on the ground in the last couple of days. I do think 
that the environment and whether this is implemented will 
affect the calculus both on the sanction side and on the 
security support side.
    Mr. Smith of New Jersey. Okay, but hopefully soon. I mean 
the Ukrainians are suffering so much. Nadia Savchenko the 
pilot, remember, of the Parliament? She is in her 82nd day of a 
hunger strike. What do we know about her and what are we doing 
to try to affect her release?
    Ambassador Nuland. We have grave concerns about her 
condition. We believe she was illegally abducted across the 
border and that she is being illegally held; that if Russia 
wanted to give a humanitarian gesture there would be nothing 
more impactful that they could do quickly than to release her. 
Today we have concerns about her health. She was seen by a 
European doctor last week or 2 weeks ago. But as you know, when 
you are taking in no calories, every day matters. So in every 
meeting we have at every level, notably including Secretary 
Kerry's meeting with Foreign Minister Lavrov over the weekend, 
we raise her condition and ask that she be released 
immediately.
    Chairman Royce. Thank you. We go now to Mr. Gregory Meeks 
of New York, ranking member of the subcommittee on Europe.
    Mr. Meeks. Thank you, Mr. Chairman. And let me just say for 
me this is very complicated. I don't think that there is one 
solution to it, whether it is giving weapons if that is going 
to be the be-all and end-all that is going to resolve this 
problem or not. I am not even sure where I am at on that.
    Let me just ask this question. I just want to ask one. I 
know we have been a lot on weapons. Because I think by now 
everybody is clear I am a multilateralist. I think that the 
world is different. We can't just do things on our own. I think 
it is leadership when you are bringing countries together and 
you have it in the work and stick together. I think that is 
leadership. But it is difficult. It is easy to do things by 
yourself. It is harder to do things in conjunction with others, 
and that is real leadership in my estimation.
    Now where is, and I am not sure even on the weapons because 
like I say I am not sure where I am at because you don't like 
to see this, but have we had dialogue and where is our EU 
partners on giving defensive weapons to Ukraine? And in my mind 
I am still unclear what is defensive weapons, what are 
offensive weapons, whether or not those weapons, if you are in 
battle everyone says that Ukraine cannot beat Russia. Can 
Russia take those weapons away from the Ukrainians? But where 
is our EU partners on the issue of arming Ukraine?
    Ambassador Nuland. Thank you, Congressman, and thank you 
for your support for Europe as the new ranking member of a 
subcommittee.
    I am multilateralist, too. I would say with regard to 
managing our response on Ukraine, we spend almost as much time 
working with NATO and EU partners as we do working with 
Ukrainians, because that unity is so important and it makes it 
impossible for the Kremlin to divide us.
    All 28 allies have provided, NATO allies have provided, 
some form of security assistance to Ukraine. That was one of 
the commitments we made to each other at Wales. It can take the 
form of training. It can take the form of support for the 
medical needs of the military, those kinds of things.
    The U.K. and Poland have just announced, as you probably 
saw in the press, that they will start training Ukrainians 
along the lines of the notifications that we have sent up to 
you all. Where the divide happens and where the debate is 
happening, and there are allies and partners on both sides of 
this debate as there are folks in Washington, is on the 
question of the lethality of the weapons. So non-lethal 
defensive weapons everybody has been supportive of what we have 
done, what this committee has funded.
    On the question of lethal, I think the debate is very 
similar with different allies on different sides. The President 
obviously has discussed this with all of his partners, most 
notably with Chancellor Merkel when she was here. The Vice 
President had a chance to talk to a lot of Europeans at Munich 
as did Secretary Kerry. So that conversation continues.
    Mr. Meeks. Let me ask this question a little bit different. 
Because what my concern really is even before we can deal with 
what is taking place militarily, a few folks that I have spoken 
with they are really concerned with the dire straits of the 
economics, of the economy of the Ukraine. In fact some has said 
to me that the economy and corruption could cause the 
Ukrainian, this Ukraine, the government to fold even before we 
get further down the road. And that even the money that we give 
some questioning whether or not it is going to where it is 
supposed to go or is it getting into corrupt hands.
    So my question is what is new in this government and its 
legislation that changes our calculation on this front and 
gives encouragement? Because in many I am told, politically, 
all politics are local, that many of the individuals in Ukraine 
are more concerned about the economy and corruption right now 
as their first concern before we even move off from that. So 
where are we there?
    Ambassador Nuland. Thank you, Congressman, for raising this 
point. This is the other major line of vulnerability for 
Ukraine and where we have to shore her up. And again we thank 
you for your support and generosity on this committee for, 
first, last year's $1 billion loan guarantee, then again our 
request for the second $1 billion loan guarantee which is the 
U.S. contribution to the multilateral effort that the IMF is 
leading.
    As you have seen in the last few weeks, as the Ukrainians 
have started the very hard legislative work and implementation 
work to attack the problems in the economy, it has been 
extremely intense. I gave a long list in my opening statement. 
You will see a fuller list in my long statement of all the 
legislation that they have passed to establish an anti-
corruption bureau; to clean up public procurement; to open the 
banking system to scrutiny; to get oligarchs and others to 
start paying their taxes; to break up public and private energy 
monopolies, these kinds of things. But that is going to require 
implementation. And most of the economic support funds we have 
asked you all for Ukraine, for '15 and again for '16, go to the 
U.S. mentors and advisers, our ability to work with them on 
implementing legislation, help them be public in these things.
    But it is a long, long road but they are seizing it by the 
horns. That is why we have structured our support to ask you 
for the second billion-dollar loan guarantee now, but not to 
come back to you for the third one until the fall when we see 
how they implement because our assistance, like everyone's 
assistance, is tied to performance. The Ukrainian people expect 
no less. That is what they stood in the snow for and that is 
what we expect as well.
    Chairman Royce. Thank you.
    We go now to Mr. Dana Rohrabacher of California, chairman 
of the Europe, European and Emerging Threats subcommittee.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
agree with Mr. Meeks that this is a very complicated issue and 
perhaps a lot more complicated than the black and white 
alternatives that we have been hearing about today.
    At one point we have heard that the Ukraine desperately 
needs economic help, and I would hope that our goal is to do 
what is right by Ukraine and bring peace to Ukraine and not our 
goal being to basically defeat and humiliate Russia for actions 
that it has taken. Because if that is our goal, the people of 
Ukraine will continue to suffer and suffer and suffer.
    Back to the Ukraine desperately needs economic help, this 
whole incident in history started when the government of what 
you call the rotten regime that preceded the current Government 
of Ukraine went to our European allies to ask for help that it 
desperately needed for its economy. And the deal that was 
offered by our European allies was not sufficient, and in fact 
was much less than what the Russians offered them instead.
    And when that deal was taken by the rotten regime that you 
have mentioned, all of a sudden that is when it became so 
rotten that we no longer, or the people could no longer put up 
with it. The pivotal moment was when it accepted the deal that 
was offered by Russia to help them in their desperate economic 
situation which our European allies were not willing to do. 
That ignited this situation. That is what turned policies type 
of situations, and perhaps the overturn of a rotten government 
through an electoral process into instead the overturn of the 
rotten regime by violent demonstrations and non-democratic 
means of overthrowing that regime. Two years later they could 
have kicked that Yanukovych out with a free election. They 
didn't wait.
    Let me ask you about--okay, so let us hope that what we are 
doing now is aimed at trying to end the conflict that started 
in that more complicated way than black and white.
    The people are advocating that we send weapons to Ukraine, 
the defensive weapons. Would any of these weapons be under, do 
we see any of these weapons becoming part of the arsenal of 
that part of the Ukrainian army that is financed, which I 
believe a third of the Ukrainian army now that is in conflict 
is financed by an oligarch, a private citizen who happens to be 
a multi-billionaire.
    Ambassador Nuland. First of all, Congressman, thank you. I 
will respectfully take issue with some of the facts that you 
presented here because----
    Mr. Rohrabacher. Please go right ahead. I am happy to do 
that. That is fine.
    Ambassador Nuland. First of all, in the fall of 2013 the 
reason that folks went to the Maidan was not because money was 
taken from Russia. It was because former President Yanukovych 
turned his back on the EU Association Agreement that he had for 
6 months been promising his people. It got worse after----
    Mr. Rohrabacher. Have you read that agreement?
    Ambassador Nuland. I have.
    Mr. Rohrabacher. And do you believe that that agreement--I 
have as well. Do you believe that that agreement was superior 
to what the Russians were offering?
    Ambassador Nuland. Let me speak to that. So in the same 
period in the fall of 2013 when Yanukovych was talking to the 
EU about association he was also working with the IMF on an IMF 
package similar to what was offered later and what we have now. 
I was working as the U.S. Government's representative to him to 
try to get him to meet IMF conditions. I had more than 30 hours 
of meetings with him and declined to meet with----
    Mr. Rohrabacher. Excuse me, I only have 25 seconds where 
they cut me off.
    Ambassador Nuland. Okay.
    Mr. Rohrabacher. I want to make this point.
    Ambassador Nuland. Let me speak to the weapons issue.
    Mr. Rohrabacher. It is not your time. They are going to cut 
me off in 15 seconds. I hope that what we are doing is trying 
to bring peace to the Ukrainians and not to humiliate the 
Russians. And there is a lot of people--and I understand, I was 
a big Cold Warrior as well. Our goal should be to try to have 
peace in that part of the world, not to try to humiliate Russia 
again and again and again. There is too many people being 
killed out there.
    And I would hope that with decentralization which seems to 
be accepted by both sides that that area of eastern Ukraine can 
remain part of Ukraine even though that now we have this 
separatist violence going on that with promise of 
decentralization and respect for everybody's rights and an end 
to the violence that we can end this situation.
    And that should be our goal and I would hope that we don't 
get caught up in trying to reestablish a Cold War with Russia 
because we have so many people who have grudges. And by the way 
I understand that. Russians during the Cold War murdered how 
many Ukrainians, but our goal shouldn't be right now to make 
them pay for that what they did during Stalin's era, but bring 
peace to that region. And I would hope that we could work 
together on that. I am sorry but they are going to cut me off 
right now.
    Chairman Royce. Okay, we are going to go to Mr. Gerry 
Connolly of Virginia.
    Ambassador Nuland. Mr. Chairman, can I just quickly----
    Chairman Royce. Yes, Ambassador.
    Ambassador Nuland. I think it is important for the record 
to say that the only thing that the United States and our 
European partners want from Russia with regard to Ukraine is to 
leave Ukrainian territory. Leave Ukrainian territory with their 
military, with their advisers, to allow the border to close, to 
allow sovereignty to be restored. And as we said, these 
sanctions will be eased when Minsk is fully implemented. There 
is no effort.
    What my concern is it is the policies of the Kremlin that 
are hurting the Russian people now. Hurting them economically. 
Having their sons come home in body bags. That is what I worry 
about. I have spent 25 years of my life trying to integrate 
Russia into Europe and into the international system, and I 
worry about the fate of Russia's citizens as much as Ukraine's.
    Chairman Royce. We are going to go to Mr. Gerald Connolly 
of Virginia. Fairfax, Virginia.
    Mr. Connolly. Thank you very much, Mr. Chairman. I would 
just say I have heard my friend from California. I have got to 
say the logic of the Ukrainian Government made bad decisions 
and therefore Russia had to respond is a pretty chilling 
message to others in Europe, including the Baltics and former 
Soviet satellite states. Sovereign nations get to make 
decisions, even decisions that may be unpopular in the Kremlin. 
And they can do so without the fear of being invaded and their 
territory annexed illegally, and I would hope that all of us 
would keep that in mind.
    Madam Secretary, Minsk, the Minsk agreement. Does the Minsk 
agreement include interalia the de-occupation and de-
annexation, illegal annexation of the Crimea?
    Ambassador Nuland. Congressman, it does not. It only 
addresses eastern Ukraine. So the problem in Crimea will 
continue.
    Mr. Connolly. Well, but I have got a problem then with you 
and with our policy. You say in your statement the United 
States will start rolling back sanctions on Russia only when 
the Minsk agreements are fully implemented. Well, that means 
you have conceded Crimea. Is that U.S. policy?
    Ambassador Nuland. It is not, sir.
    Mr. Connolly. Why would you roll back--I swear I am not 
playing with the audience. This is a passion with me. It 
started with Crimea. Why would you make a statement like that? 
You are saying as long as you clean it up in the eastern part 
of the Ukraine we will roll back sanctions. That is what you 
say on Page 3 of your testimony.
    Ambassador Nuland. I do indeed. Let me explain if I may.
    Mr. Connolly. Yes.
    Ambassador Nuland. Thank you for the opportunity to do so.
    Over the course of 2014 we with the Europeans put in place 
four or five rounds of sanctions. The first two were a direct 
response to Crimea, and then in December we added sanctions on 
Crimea which effectively make it impossible for any U.S. firms 
to invest there. Those sanctions will not be rolled back unless 
there is a return of Crimea to Ukraine. So the sanctions that 
we are talking about rolling back are other sanctions that were 
applied in response to actions in eastern Ukraine, but Crimea 
sanctions will stay in place. And the point here is to 
demonstrate that if you bite off a piece of another person's 
country it dries up in your mouth.
    Mr. Connolly. Well, but you have got kind of two categories 
of sanctions. Crimea sanctions and non-Crimea sanctions.
    Ambassador Nuland. Yes, sir.
    Mr. Connolly. Well, if you are Vladimir Putin, how 
seriously do you take that?
    Ambassador Nuland. Well, you take it quite seriously 
because there is no U.S. or European investment going into 
Crimea now and it is incredibly expensive for them to maintain 
this occupation that they have now started.
    Mr. Connolly. But, well, I would respectfully suggest Madam 
Ambassador that frankly we need to reexamine that policy, 
because it clearly isn't efficacious. It certainly isn't 
deterring behavior by Putin right now in the eastern part of 
the Ukraine. People are dying. You yourself in your opening 
statement documented illegal movement of military equipment 
across the border with impunity.
    And it seems to me that you have unwittingly sent a message 
to the Kremlin, wink blink, get out of the eastern Ukraine and 
maybe everything can return to some sense of normalcy in the 
bilateral or multilateral relationship. That may not be your 
intended message, but when you are a KGB thug who happens to be 
the head of another state, the aggressor in this case, that is 
the message he is hearing. The evidence on the ground would 
suggest that is the case.
    Ambassador Nuland. First of all, if I may, I think it might 
be helpful if we sent our sanctions team up to show you the 
breakdown between what we hold for Crimea and what we hold for 
eastern Ukraine. I think that might be----
    Mr. Connolly. You mean the State Department's sanction 
team? Is that what you said?
    Ambassador Nuland. State and Treasury, yes. If that is 
helpful.
    Mr. Connolly. Okay. Well, that would be a novel thought 
having the State Department brief a Member of Congress.
    Ambassador Nuland. We will make that happen as soon as they 
come back from Europe. But I want to make clear as I also said 
in my statement, we have begun consultations already this week 
with our European partners on deepening sanctions if we do not 
see Minsk implemented.
    Mr. Connolly. How many violations have there been on Minsk 
II? We have a count that says there have been over 300 
violations of the current agreement. Would that be roughly in 
the ballpark from your point of view?
    Ambassador Nuland. I don't have the OSCE figures in front 
of me, but they have logged more than 100 in terms of----
    Mr. Connolly. Isn't part of the problem of Minsk that there 
isn't really much teeth? With the best of intentions Merkel and 
Hollande are trying to negotiate with nothing backing it up. 
Wouldn't it be useful to have the United States and its NATO 
partners at least threatening to provide defensive equipment 
and defensive weapons and training for the Ukrainian military 
so that that is a piece of what is behind the Minsk agreements?
    Ambassador Nuland. Well, as you know it was in the week 
leading up to Minsk that the conversation between us and our 
European allies about this question went public. So it is very 
much in the ether here. But I think equally importantly is to 
be in line with Europe on the additional sanctions that will be 
imposed if Minsk is further violated or if there is a further 
land grab, and that is what we are working on now.
    Mr. Connolly. Thank you.
    Mr. Chairman, my time is up but I want to echo, I think, 
your opening comments.
    Chairman Royce. Mr. Connolly, yes.
    Mr. Connolly. One wonders when the United States Government 
at the State Department decides a policy is not working and 
rethinks it. Because people are dying because of the lack of 
efficacy of this policy despite the best of intentions, and I 
hope we come to some point where we rethink our policy with 
respect to the Ukraine. And Crimea. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Connolly.
    We go now to Mr. Matt Salmon of Arizona, chairman of the 
subcommittee on Asia.
    Mr. Salmon. Thank you, Mr. Chairman. Thank you so much for 
being here today, Ambassador. To date, the sanctions that have 
been imposed on Russia have had really little impact on Putin's 
decision making. The administration has stated that additional 
sanctions are being considered, but without the commitment of 
some our allies, some of our European allies to enforce those 
sanctions with us or impose sanctions as a body, the likelihood 
of those sanctions having much effect are not real great.
    Are there other sanctions that the administration is 
considering and do you believe that it will impact Putin's 
decision making in the near term? You stated in your opening 
comments that what has really impacted him is the price of oil 
and that it has really brought their economy to their knees.
    So I am wondering if maybe it is time also for us to 
consider our policy in selling natural gas to our European 
allies. The process just hasn't moved very quickly. And one of 
the reasons I know that Germany has been so reticent to allow 
us to sell arms or provide arms to the Ukrainians is because of 
their heavy reliance on natural gas from Russia. Same thing has 
been true on support of sanctions. Isn't it time for us to just 
really pull out the stops and start selling LNG to our allies 
in Europe?
    Ambassador Nuland. Thank you, Congressman. Well, as you 
know most U.S. LNG now goes to Asia because the price is 
higher. Under the Transatlantic Trade and Investment 
Partnership, if we have a deal between the 28 Europeans and the 
United States, then they would go to the top of the queue in 
terms of acquiring LNG. But it is a fair point whether we could 
or should do more.
    With regard to sanctions, we have not yet changed his 
decision making decisively but we are having a profound effect 
on the Russian economy and we do think it is the trifecta of 
sanctions, low oil prices and 15-plus years of economic 
mismanagement in Russia. I can go through some of the 
statistics but I think you know them. Foreign currency reserves 
down $130 billion just over the last year. Credit at junk, 
inflation running 15 percent, and 40 percent in food prices.
    So he is--Kremlin policy is under stress here which is why 
it is important to keep these sanctions in place and to 
consider deepening them. We are, as I said, working now with 
the Europeans on what more we would do sectorally if we do not 
see Minsk implemented, if we do not have an end to the 
ceasefire violations, if we do not have a heavy weapons 
pullback, on and on. But also even deeper sanctions if we have 
a further land grab, and we are, as I said, watching these at-
risk villages on the road to Mariupol, et cetera, now. And our 
sanctions team is in Europe this week.
    Mr. Salmon. The chairman mentioned in his opening statement 
that we made a pretty ironclad promise to Ukraine when they 
agreed to get rid of their nuclear arms, and to date the U.S 
and NATO response to the Russian aggressions has been pretty 
muted at best. In fact, out of the $118 million of non-lethal 
assistance the U.S. pledged last year, my understanding is only 
half of it or about half of it was delivered by year-end.
    Don't you believe that there will be long-term consequences 
for the U.S. and NATO if we fail to live up to our commitments 
to defend our allies? And when are we going to make that 
decision as far as whether or not to provide at least defensive 
weapons to Ukraine? I know that question has been asked and 
hopefully that is something you carry back to your boss. 
Because as far as we are concerned nothing is going to get 
better unless we step up to our commitment to honor the 
promises that we made. And my feeling is nobody is going to 
trust us in the region if we don't honor those commitments.
    Ambassador Nuland. Thank you, Congressman.
    Chairman Royce. Thank the gentleman for yielding back. We 
now go to Brian Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    Secretary, how many Russian soldiers are in Ukraine today?
    Ambassador Nuland. Congressman, I am not in a position to 
give you a definitive number in this unclassified setting. You 
have seen Ben Hodges make a calculation from U.S. Army Europe. 
I would say it is in the thousands and thousands. I am sorry.
    Let me also, just while I have you here, say that what we 
can say in this unclassified setting is that since December, 
Russia has transferred hundreds of pieces of military equipment 
including tanks, armored vehicles, rocket systems, heavy 
artillery. The Russian military has its own robust command 
structure in eastern Ukraine ranging from general officers to 
junior officers. As the President said not too long ago, they 
are funding this war. They are fueling it. They are commanding 
and controlling it.
    Mr. Higgins. In practical terms does that constitute an 
invasion?
    Ambassador Nuland. We have made clear that Russia is 
responsible for fueling this war in eastern Ukraine.
    Mr. Higgins. Yes or no, constitutes an invasion.
    Ambassador Nuland. We have used that word in the past, yes.
    Mr. Higgins. If Ukraine was a member of NATO, under the 
collective defense posture of Article 5 what would the 
consequence of Russia's invasion of Ukraine be?
    Ambassador Nuland. Well, Article 5 would give all of the 28 
allies a responsibility to defend Ukraine from aggression. Just 
to make clear that even in 2008 when Ukraine was discussing 
with NATO an improvement in its relationship, at that stage we 
were only at the Membership Action Plan which is the 
preparatory phase.
    Mr. Higgins. Is it in reality Putin's concern about America 
encroachment and NATO encroachment on what was formerly the 
Soviet Union?
    Ambassador Nuland. I can't speak to what is in President 
Putin's head. That is a place that I don't think I can go. But 
what I can say is that there is no justification for being 
concerned about countries peacefully associating with a 
defensive alliance. We have said for 25 years that NATO is not 
a threat to a Russia that does not threaten us.
    Mr. Higgins. Russia's defense spending has tripled since 
2007. Today it is involved in about a $300-billion program to 
modernize its weapons. New types of missiles, bombers and 
submarines are being readied for deployment over the next 5 
years. Spending on defense and security this year will increase 
by 30 percent in Russia representing one third of its Federal 
budget. Putin has said very clearly that nobody should try to 
shove Russia around when it has one of the world's biggest 
nuclear arsenals. At last count, Russia had 8,000 nuclear 
weapons. He has threatened to use nuclear weapons on a limited 
basis, if that is possible, to force opponents, specifically 
the United States and NATO, to withdraw from a conflict in 
which Russia has a stake such as in Georgia and Ukraine. That 
is pretty ominous. That is a pretty ominous statement. Your 
thoughts?
    Ambassador Nuland. Well, we obviously have great concerns 
about the massive increases in Russian defense budgeting over 
the recent years. It is particularly concerning given what is 
happening to the Russian economy and to the Russian people. As 
I said before, inflation across the country is now running 15, 
17 percent. Food prices rampantly increasing including 40 
percent in some areas. Credit at zero. The inability of 
Russians now to travel and to buy new apartments because they 
can't get loans, et cetera. And at the same time he is pouring 
money into the military. So this is a Kremlin that is 
prioritizing foreign adventures over the needs of its own 
people and that is worrying.
    Mr. Higgins. Okay. I yield back. Thank you.
    Chairman Royce. We go now to Mr. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    Madam Ambassador, you mentioned earlier the body bags, the 
boys going back to Russia. It had to be tough on them. Do you 
know what the body bag count, the numbers of soldiers they are 
losing?
    Ambassador Nuland. It is not possible, Congressman, to have 
a final count because of what Russia has done to mask these 
numbers. As you know they have criminalized discussion of it 
inside Russia. They have threatened mothers and wives and 
family members with pensions.
    Mr. Weber. Okay, so you don't know.
    Ambassador Nuland. But the Ukrainians assert that it is at 
least 400, 500 people.
    Mr. Weber. And if they check into it too deeply they will 
lose benefits.
    Ambassador Nuland. Absolutely.
    Mr. Weber. So what is the body count for Ukrainians?
    Ambassador Nuland. As I said in my statement, close to 
6,000 Ukrainians have lost their lives in this conflict.
    Mr. Weber. So 6,000.
    Ambassador Nuland. Or over 6,000, I believe.
    Mr. Weber. How long do you think we have before Ukraine 
becomes another Crimea? It is annexed into Russia.
    Ambassador Nuland. Well, as I said, Congressman, the entire 
thrust of our policy is to stop it where it is and roll it back 
if we possibly can. That is why we have been imposing these 
increasingly tough sanctions and you see the Russian economy 
suffering as a result, providing increasing amounts of security 
assistance albeit on the non-lethal side.
    Mr. Weber. But the sanctions haven't stopped the body bags 
from flowing both directions have they?
    Ambassador Nuland. They have not, and this is what we 
continue to try to seek is a full implementation of the 
commitments that Vladimir Putin himself just made less than 2 
weeks ago in Minsk.
    Mr. Weber. Do you trust him?
    Ambassador Nuland. Trust is not a word I use in that 
connection, sir.
    Mr. Weber. Okay, I think you are wise at least in that one 
regard. You said it is difficult for Russia to sustain their 
occupation of Crimea in your comments earlier.
    Ambassador Nuland. I am sorry. I didn't say it was 
difficult for them to sustain it. I said they were hemorrhaging 
money. It is extremely expensive for them to sustain it.
    Mr. Weber. Well, maybe that is part of our problem in 
Congress. That should be viewed as a difficulty. So they are 
hemorrhaging money. So you don't think that that makes it 
difficult for them to sustain their occupation?
    Ambassador Nuland. Well, they still have as you know more 
than $300 billion in sovereign wealth. What they are doing now 
is using the money of the Russian people, the hard earned money 
that should go for their long-term protection to prop up this 
puppet annexation occupation.
    Mr. Weber. So we have made it difficult for them to sustain 
their--you don't want to use the word ``difficult.'' You have 
made them spend money to sustain their occupation.
    Ambassador Nuland. We are declining to invest in this 
territory that is now occupied, yes.
    Mr. Weber. Okay, so they are spending a lot of money. How 
do we make it that difficult and more so for them to be in the 
Ukraine?
    Ambassador Nuland. Well, as I said, as we continue to watch 
this implementation or nonimplementation of Minsk we are 
looking at the next range of sectoral sanctions either to 
deepen in the sectors where we already have sanctions--on the 
finance side, on the energy side, on the defense side--or to 
add sectors of the Russian economy that we----
    Mr. Weber. Would you agree that we can make them hemorrhage 
money in Ukraine if we are destroying their tanks as they enter 
the country?
    Ambassador Nuland. Well, they already have been 
hemorrhaging money on their weapons.
    Mr. Weber. No, but that is not my question. If we are 
knocking out their tanks left and right, does that cost them a 
lot of money?
    Ambassador Nuland. It certainly would be money down the rat 
hole for sure.
    Mr. Weber. And we would rather them having body bags going 
back to Russia than we would have body bags on this side of the 
border. Is that accurate?
    Ambassador Nuland. What we want is peace and an end to the 
body bags in any direction.
    Mr. Weber. Do you think that Putin understands peace or do 
you think he understands force?
    Ambassador Nuland. Again I am not going to get inside his 
head. It is not a place to be.
    Mr. Weber. Okay. Well, fair enough. If you are married like 
I am sometimes it is difficult to get into your spouse's head. 
So let us put you over in the President's head then. Can I do 
that?
    Ambassador Nuland. You are welcome to try, sir.
    Mr. Weber. No, I think the comment is you are welcome to 
try. Is the President disengaged or not worried about this?
    Ambassador Nuland. Absolutely not. The President has been 
the leader of this Ukraine policy. He has been enormously 
engaged. I have been in meetings with him where he was 
passionate----
    Mr. Weber. He has 21 months left. How many more body bags 
have to take place in Ukraine before we send them lethal? And I 
will just call them lethal weapons. I hate the words 
``defensive weapons.'' I mean a weapon is a weapon. So how long 
is it going to take? How many more body bags before we get in 
gear and make this decision? What do you think the President is 
thinking?
    Ambassador Nuland. Again these are his decisions to make. 
We will certainly convey to him your concerns.
    Mr. Weber. Okay, then your decision from my vantage point 
is what kind of pressure, what kind of information are you 
giving to the President? This is Mr. President we need to act.
    Ambassador Nuland. Congressman, as I said a little bit 
earlier on in this hearing, I am going to take the same 
position that my Secretary took when he was here last week. The 
President has asked us for our advice. We have provided it to 
him, but I am going to keep that advice confidential for 
purposes of this hearing.
    Chairman Royce. Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you, 
Ambassador Nuland, for your testimony. I want to begin by also 
recognizing the tragic murder of Russian freedom fighter Boris 
Nemtsov who was brutally murdered in the streets of Moscow last 
weekend to of course urge our Government to do anything it can 
to ensure the perpetrators of this horrific crime are brought 
to justice. And I know many in this country are sending their 
thoughts and prayers to his family and to his friends and his 
colleagues. Unfortunately these so-called tragic events are 
quite common for those who dare to criticize Mr. Putin and his 
cronies, and I think it is important that we acknowledge the 
extraordinary efforts of this freedom fighter.
    I thank you for your testimony, and I want to just focus on 
the corruption efforts that are underway. As you well know, 
Ukraine has historically had the distinction of being, or 
dubious distinction of being one of the most corrupt countries 
in the world, and I wonder if you would speak to how the new 
government in Kyiv is addressing this problem.
    Are their reforms on pace? Are they going far enough? What 
are we doing to support those efforts? And are we seeing the 
tough decisions that need to be made and the kind of 
prosecutions and firings and the development of an independent 
judiciary to help advance the anti-corruption efforts that was 
a source of so much of what happened at the Maidan? And I just 
wondered if you would speak to some of those issues.
    Ambassador Nuland. Thank you, Congressman. Corruption has 
been a country killer for Ukraine. It has also been an opening 
for malign influence from the outside in Ukraine's business. So 
not only because Ukraine's own citizens demand it, but because 
the democratic health of the country demands it, this has been 
a major source of focus of collaboration within the Ukrainian 
Government. As I said at the outset, they have just over the 
last 3 months passed an enormous amount of legislation, much of 
it designed to tackle corruption. Just to name a few things, a 
new anti-corruption strategy; a new public procurement system; 
the creation of an anti-corruption bureau and national agency 
for prevention of corruption; strengthened anti-money 
laundering regulations; disclosure of public officials' 
domestic and overseas assets for the first time; partial 
judicial reform including of the prosecutor general, more to 
come.
    The U.S. is providing some $38 million in the assistance 
money that you have given us for that purpose. We have advisers 
and trainers in many of these entities. We are also supporting 
civil society for oversight and reform. Other new positive 
developments that go to the corruption and past dirty money 
practices, they are standing up a new patrol police. The police 
as you know have historically been subject to bribery. The new 
prosecutor general, Viktor Pshonka, has issued arrest warrants, 
new arrest warrants for some of the corrupt ex-officials.
    There is a new business ombudsman appointed. They have 
slashed the corrupt energy subsidy. They have cut payroll taxes 
to reduce incentives for unreported wages; eliminated eight 
regulatory agencies and consolidated them into one; increased 
transparency of state-owned companies; made banking 
recapitalization more transparent. A lot of this is legislation 
on the books. We now have to see it implemented. We have to see 
oligarchs and everybody pay their taxes, be immune from special 
and sweetheart deals. We will watch like a hawk. The Ukrainian 
people will watch like a hawk. I think the parties will be 
judged by this in local elections in October. But Ukraine is on 
the path. They have to stick to it now.
    Mr. Cicilline. Great, thank you. And just to turn to a new 
subject. Could you sort of speak a little bit about what role 
the Ukrainian reliance on Russian energy is playing in this 
conflict and what the U.S. and our allies are doing to help 
alleviate Ukrainian reliance on Russia? And are European allies 
able to separate themselves from their own energy needs as this 
sort of conflict continues?
    Ambassador Nuland. Congressman, as you know energy has long 
been a noose that the Kremlin has had around the neck of 
subsequent generations of Ukrainian leaders. This government is 
bound and determined to break that. Our first effort was to 
help them get gas from parts of Europe other than Russia, so we 
worked with Hungary, Slovakia, and Poland last year to start 
reversing gas flows into Ukraine.
    We have worked with the European Union as they have 
brokered the gas deal that Ukraine cut, which was a much fairer 
deal for the winter of 2014-15. We are now working with them as 
I said to open up, demonopolize the energy sector to help them 
get more of their own energy out of the ground, to work on 
energy efficiency. If you have ever been to Kyiv in the winter 
and had government windows open you know how badly that is 
needed. About a third of the heat is going out the windows. It 
shouldn't.
    So we are working on all of those things to break the 
dependence, but also to help Ukraine get to that place where it 
can be an energy supplier for Europe.
    Mr. Cicilline. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go now to Mr. Scott Perry of 
Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Ambassador, great to see you. Please don't take any of the 
comments personally, but as an American, quite honestly I am 
disappointed and disgusted with the ineffectual and pathetic 
response from this administration regarding this circumstance 
in Ukraine.
    And I am just wondering, to start out, does the 
administration agree--because we have heard in other forums 
about grievances, legitimate grievances. So does the 
administration agree with the justification from Putin 
regarding the protection of ethnic Russians in any way, shape 
or form?
    Ambassador Nuland. There is nothing that justifies the kind 
of violence that we have seen Russia unleash in eastern Ukraine 
or in Crimea.
    Mr. Perry. I agree with you.
    Ambassador Nuland. However----
    Mr. Perry. But do they have legitimate grievances? Does 
Russia have legitimate grievances in this regard?
    Ambassador Nuland. Russian speaking citizens in eastern 
Ukraine, like citizens in other parts of Ukraine, have long 
wanted some of the things that Russia championed for them--
language, rights, decentralization. But all of those things 
were on offer first from the transitional government of 
Yatsenyuk from March onward, and since then with President 
Poroshenko and the new Rada. So there is no reason for 6,000 
dead.
    Mr. Perry. Okay, so I just want to make sure, because 
history sometimes get lost on us as we go through our days. But 
I just want to make sure that the administration is familiar 
and aware of the history of Stalin and Khrushchev in the '20s 
and the '30s and the terror, the Terror-Famine and the 
starvation of the Ukrainian people and the displacement and 
deportations and the reestablishment of Russians into the 
Ukraine.
    And so when Putin says that he is going to protect these 
Russian speaking citizens, with all due respect they were moved 
into Ukraine by killing the Ukrainians. And it is important to 
know that history when we talk about legitimate grievances. So 
I am concerned. I too agree that we should send defensive 
weapons to Ukraine. I am in the agreement camp on that.
    So does the current posture of or the strategic patience 
that I hear about, does the White House's--well, how does that 
fit in? How does the decision not to send defensive weapons at 
this point, how does that fit into strategic patience or is it 
a part of it?
    Ambassador Nuland. Nobody has been patient with what we are 
seeing in eastern Ukraine. Just to remind we have sent----
    Mr. Perry. The Ukrainians have been patient because they 
have no choice.
    Ambassador Nuland. We have sent as you know $118 million 
in----
    Mr. Perry. Defensive weapons, so forget all that other 
stuff. Defensive weapons. I imagine you have been to a war 
zone. I have.
    Ambassador Nuland. Yes.
    Mr. Perry. Okay, blankets and all that stuff, they don't 
stop bullets. They don't stop tanks. You must defend yourself. 
Harsh words and we will get back to you and we are deciding, 
that doesn't help. So I am talking about defensive weapons and 
strategic patience. Where does one hinge on the other? How do 
they fall together?
    Ambassador Nuland. Some of the things we have sent do fall 
into the category of defensive non-lethal weapons. I would note 
again that the counterfire radar batteries that we have sent 
did save lives. They enabled the Ukrainian forces to target 
where firing was coming from so that they could defend against 
it. We have also provided support in the intelligence----
    Mr. Perry. Okay, listen. I get it. With all due respect 
that is the absolute minimum standard. It is not going to be 
effectual, which is why my opening statement about pathetic and 
ineffectual is valid in my opinion.
    Let me ask you this. Can you explain the concerns within 
the context, the concerns about providing defensive weapons 
within the context that the President requested hundreds of 
millions of dollars from this Congress for training and 
equipping for moderate fighters in Syria?
    So in that context where we are going to send those folks 
weapons, weapons, not defensive weapons, but weapons and 
training that somehow Ukraine and the people that have been 
there that are more like us than the other, they can't have 
those weapons. How do we reconcile that? What is the 
calculation there?
    Ambassador Nuland. Well, as you know the training and 
equipment request for Syria goes to the need to defeat the ISIL 
threat, which is a central threat as well to the homeland. I 
don't work on Syria policy so I am going to refrain from 
commenting.
    Mr. Perry. Do you find that to be a little incongruent? We 
don't know who the Syrian fighters are. We don't know--look, 
today they are fighting ISIS, tomorrow they are fighting Assad, 
the next day they are fighting us and we are going to train 
them and send them weapons? Don't you find that a little 
incongruent? Have Ukrainian people ever said that they were 
going to fight the United States, kill us and the Great Satan? 
Have they ever said anything like that?
    Ambassador Nuland. Well, certainly we will register your 
strong position on this issue, Congressman. I would say that 
$118 million in security support is not nothing. I hear you 
that you want to hear more.
    Mr. Perry. At the end of my time here. We hear that sending 
defensive weapons will escalate the problem. Not sending them 
that won't escalate the problem; there won't be a problem 
because there will be no more Ukraine.
    Thank you very much, I yield back.
    Chairman Royce. We go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and I was on that trip 
with you and Mr. Engel when we went to Ukraine last year.
    Thank you for your testimony. I want to say that I feel 
anxiety when I hear some of my colleagues with their 
unflattering remarks and I will tell you why. I have three 
questions. When we were in Ukraine we heard--I am going to 
follow up Mr. Cicilline's question because he was with us. We 
heard time and time again how the corruption of the Ukrainian 
Government undermined the government, created an environment 
which I think you alluded to allowed Russia's aggression to 
proceed, but it was not just the laws it was cultural, and so I 
would like you to, if you could, expound.
    The number one is, first of all, would you have even 
considered giving weapons to the previous government, 
Yanukovych, would you have considered that? And is the culture 
or the corruption that was in Ukraine which you are waiting to 
see if the reforms take place, how does that affect whether or 
not you are willing to turn arms over now?
    That is question number one.
    Number two, could you tell me the sanctions on Russia, what 
are the implications relative to the issues that we are facing 
in Syria and Iran? Have there been any implications? And number 
three, if you can get to it, can you tell us in your opinion 
what are the implications on our allies and relative to the 
Budapest Agreement if we do not resist Russia's aggression?
    Ambassador Nuland. Well, the last one is a big one, so let 
me just quickly go through the first ones. Our security 
relationship with Ukraine has gone through ups and downs after 
independence in '91 partly related to the quality of governance 
at the top. In recent years under the Yanukovych regime it was 
severely constrained not only because of our concerns about the 
military but also because of our concerns about his human 
rights record including with regard to Yulia Tymoshenko. So we 
were doing very little.
    With regard to our current cooperation, we are subject to 
Leahy standards and appropriate vetting of units. One of the 
major lines of effort that we have going in our advisory effort 
with the Ukrainian military is to root out corruption and 
infiltration of that military. So that is something that we 
work on very hard.
    We have, as Secretary Kerry has made clear when he was up 
here and at every time he is before you, worked hard to 
continue to be able to work with Russia on global interests 
where our interests align. So that takes you to the work we do 
together in the P5+1 on Iran. That cooperation continues not as 
a favor by Moscow to the United States, but because they too 
have no interest in a nuclear-armed Iran. Similarly our work on 
Afghanistan, our work to try to come to terms with the violence 
in Syria, which has not been completely successful, but those 
conversations continue. So we judge that they do it out of 
their own interests--not as a favor to us.
    With regard to the threat to allies, we didn't talk today 
but we have in the past about the intensive effort underway in 
the NATO space to ensure that the Article 5 deterrent is 
absolutely visible--land, sea and air. We have young Americans 
as you know in the three Baltic states and Poland and soon in 
Bulgaria and Romania showing presence. We are working on new 
headquarters elements and other ways to be able to reinforce 
them very quickly if we need to. But, obviously, if the 
violence sweeps across Ukraine, if Ukraine breaks apart, falls, 
et cetera, I personally don't think that the effort to gobble 
countries will end there.
    Ms. Frankel. And what, you said before the President is 
taking, or considerations as to whether to give further weapons 
or give weapons to Ukraine, what are the considerations?
    Ambassador Nuland. Without getting into it in too detailed 
a way in this setting, just to say again that we are giving a 
significant amount of non-lethal security support defensive 
weapons to the Ukrainians. The issue is whether to increase the 
lethality. The issue is the kind of systems. On the one hand it 
goes to the Ukrainian need and desire to defend against the 
incredibly lethal offensive things that Russia has put in place 
since January-February. On the other side it goes to whether 
this actually serves to harden or whether it escalates and is 
considered provocative and makes it worse.
    Ms. Frankel. Thank you.
    Thank you, Mr. Chair.
    Chairman Royce. Thank you. Let us see, I am going to yield 
to the chair here, to Mr. Tom Emmer of Minneapolis, Minnesota. 
Would you like to--why don't you go ahead and chair this? I 
have a meeting that I am late for.
    Mr. Emmer [presiding]. Thank you, Mr. Chair.
    Madam Secretary, you have already answered quite a few 
questions, but I want to run through something so you can clear 
this up for me. The Minsk agreement, you have referenced what 
Russia had agreed to implement. Could you please quickly tell 
me what did they agree to implement and what have they 
implemented since the agreement?
    Ambassador Nuland. Thank you, Congressman. Well, first just 
to remind that the February 12th agreement was an implementing 
agreement on prior commitments made by both Russia and the 
separatists on September 5th and September 19th.
    Mr. Emmer. Right.
    Ambassador Nuland. So the full package includes obligations 
both for the Ukrainian side and for Russia and the separatists. 
First and foremost, in the February 12th package, is a full 
ceasefire on the fighting line; a full pullback of heavy 
weapons to their ranges by both the Ukrainians and the Russians 
and separatists; full access for OSCE monitors to that zone to 
inspect and verify and to the rest of Ukraine. And then on the 
Ukrainian side thereafter----
    Mr. Emmer. Why don't we just stop on the Ukrainian side.
    Ambassador Nuland. Yes, okay.
    Mr. Emmer. Can you tell me if any of those three have 
actually been done in the last 3 weeks, 4 weeks?
    Ambassador Nuland. As I said at the outset, we have seen 
some progress in some parts of the fighting line, but we are 
concerned----
    Mr. Emmer. Madam Secretary, I am sorry but we are limited 
on time. So again, the fighting has continued. There has been 
no ceasefire.
    Ambassador Nuland. It has.
    Mr. Emmer. The heavy equipment has not been pulled back.
    Ambassador Nuland. Not completely.
    Mr. Emmer. And nobody is getting access as you said in 
response to Representative Weber's questions to figure out what 
the death totals are, et cetera, you just don't have access. 
Funny how the fighting has continued after the most recent, the 
February 12th, and you testified that the President is engaged 
and that the<greek-l>, quote, deg. ``environment'' will affect 
the calculus on the sanctions and the release of--and I am 
tired of calling them defensive weapons. They are weapons, 
weapons that the Ukrainians need to protect themselves. Russia 
continues to violate agreement after agreement. Ukrainians 
continue to die.
    What about the current<greek-l>, quote, deg. 
``environment'' needs to get worse before the President and his 
advisers adjust their calculus? Because you had said what the 
environment will determine whether we need to adjust the 
calculus, what about the environment needs to get worse for the 
Ukrainian people and for the stability in the region for this 
administration to adjust its calculus?
    Ambassador Nuland. Well, again we are watching the 
implementation of this agreement. I don't disagree with you 
that it is very spotty, and we are more concerned today than we 
were yesterday by serious violations. The President is very 
engaged. He talked, as you saw the White House release 
yesterday, to five of his major European colleagues and to EU 
Council President Tusk. We are watching this day-to-day and he 
is evaluating day-to-day.
    Mr. Emmer. You know what, Madam Secretary, that is 
wonderful, and I am sure the Ukrainians appreciate the fact 
that somebody is watching what is happening from this side of 
the world. But when is it going to get bad enough that the 
President and this administration are actually going to follow 
through on promises that have been made to the Ukrainian 
people?
    Ambassador Nuland. Well, again with regard to the promises 
that have been made for strong economic support and for strong 
security systems with your help----
    Mr. Emmer. Well, I want to go back to if you disarm 
yourself to maintain stability in the region and we will be 
there.
    Ambassador Nuland. We will certainly convey your concern 
about this, Congressman.
    Mr. Emmer. Thank you.
    The Chair will now recognize next Mr. Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I just want to thank 
you for your work. I can only speak personally, but the 
briefings that I have had including classified briefings with 
you and with the Ambassador Pyatt have been extraordinary. The 
communications are great. I want to thank you for that.
    I also, I am going to deviate from my question, because at 
least once in this hearing I think we have to put this 
perspective in because it is reality. So many of the questions 
have been unilateral. It is the U.S. It is Russia. It is U.S. 
The reality is that is not where our strength is. The center of 
gravity in all of this, I think, from a military perspective 
was described by General Breedlove when he said our unity of 
effort with the Europeans is that strength, and it is what 
Putin didn't bank on. So I am going to give you the opportunity 
to discuss how important the coalition is to the success of 
Ukraine.
    It is my feeling that without that unity with the U.S. that 
we are not going to be strong in our response and Ukraine won't 
have the opportunity to move forward itself. So could you 
comment on that? Because it is lost somewhere in today's 
hearing.
    Ambassador Nuland. Well, thank you for that, Congressman. I 
think I said earlier in the hearing that we in the European 
Bureau spend almost as much time working with Europeans on 
Ukraine as we do working with Ukrainians on Ukraine, because 
this unity has been so essential and because that unity is 
constantly being tested and probed by the Kremlin. Because if 
they can split us, obviously that is their best line to imperil 
Ukraine.
    So first and foremost, on the economic side where it has 
been a combination of our strong transatlantic support for the 
IFIs, our strong transatlantic contributions, both U.S. and 
European, that have made the $17.5-billion package that we have 
on offer for Ukraine possible now. Without that it wouldn't 
have been.
    In the four to five rounds of sanctions that we have done, 
if the U.S. had done this unilaterally we would have had a 
situation where European companies could have just come in and 
backfilled. If we had not matched what Europe was willing to 
do, the opposite would have been true or you could have seen 
efforts to drive a wedge between us. We do believe that, 
particularly in September and December, the Kremlin 
underestimated both our unity and our ability to work together. 
It is not always as quick as we would like because we have 29 
countries to coordinate, 34 if you include our other allies in 
NATO, but it does make us really strong in defense of Ukraine.
    Mr. Keating. Yes, and when you look at Minsk and when you 
look at the back end that we would not have preferred in terms 
of Russia's border issues, and when we are having these other 
discussions and these other questions about why can't the U.S. 
just do this, simply do this, isn't it important that we do 
this in a unified manner with Europe? And what would happen if 
we didn't? What would happen if we just veered off the way some 
of these questions have been pointed today on our own and just 
done this? What would our prospects for success be 
diplomatically and militarily?
    Ambassador Nuland. Well, again it would have just provided 
an opportunity for the Kremlin to divide us from major allies 
like Germany and France. I mean one of the reasons that we 
shout out Chancellor Merkel and President Hollande is that they 
are the ones who spent the 17 hours of hard diplomatic work 
with President Putin. And he had to hear that not only do we 
disapprove of what is going on and have serious concerns, but 
that all of Europe does too. And without that, he might have 
felt he could get away with it.
    Mr. Keating. Yes. I have my own feelings that I would like 
to see defensive weapons in place myself, but I also can't have 
this hearing and without commenting on the fact that we have to 
do this with partners and it is a dynamic decision. And if we 
move away from that we weaken ourselves.
    With that I yield back, Mr. Chair.
    Mr. Emmer. The gentleman yields back. The Chair now 
recognizes Representative Grace Meng from New York.
    Ms. Meng. Thank you, Mr. Chairman. Thank you, Ranking 
Member. And thank you, Ambassador, for being here today. I have 
a question. The Journal has been reporting on a $5.7-billion 
deal this week between the German utility RWE AG and an energy 
investment fund led by the Russian billionaire Mikhail Fridman 
in which the fund purchased RWE's oil and gas arm DEA.
    This deal gives Mr. Fridman the assets to launch a new oil 
company with assets throughout Europe. DEA produces about 
100,000 barrels of oil per day. This is disconcerting for two 
reasons. One it is the sort of business that we are supposed to 
be deterring, and two, it provides for Russian control over 
significant European energy supplies. Mr. Fridman is not 
currently subject to U.S. sanctions despite his close ties with 
the Kremlin. Do you know whether he is or he might be a 
potential target for sanctions?
    Ambassador Nuland. Thank you for that. I am going to get 
back to you on some of the details, but just to make absolutely 
clear that U.S. and European sanctions have targeted Russian 
public and government assets and entities. Mr. Fridman runs one 
of the few remaining private companies in Russia, and as such 
has had his own strong views as a private citizen about 
appropriate Russian-European relations.
    But let me get back to you on how we have evaluated that 
particular deal. But it is not a Russian Government deal. It 
does not deepen the Russian Government's ties into the European 
energy net or Europeans' dependence on the Russian Government.
    Ms. Meng. Okay, thank you. My second question, a U.S. law 
currently allows for the vesting of frozen assets pursuant to 
IEEPA under certain circumstances. Such circumstances include 
when the U.S. is directly engaged in conflict with another 
country or when we have been attacked by another country. In 
such cases, the President has the authority to make 
designations of the frozen assets.
    Should we consider broadening the law to allow for vesting 
of frozen Ukrainian assets? Ukraine is in need of cash and this 
would be a good way to get cash into the country.
    Ambassador Nuland. Okay. I am going to admit you have 
stumped the witness. I am going to take that one and look at it 
with our Treasury colleagues.
    Ms. Meng. Okay, great. Thank you. And my last question. I 
would like to get your impression on Russian influence in 
Europe. Russians own media properties in Great Britain, and 
Russia has close ties with political parties in Britain and 
France, mainly the U.K. Independence Party as well as the 
National Front in France. We know of close German relationships 
as well. Some of the ties such as the energy relationships are 
clear, others are more in the shadows.
    Can you shed some light on Russian influence in the 
European media and finance sectors and give us a sense of who 
in the Western European political landscape are close with the 
Kremlin?
    Ambassador Nuland. Well, thank for that question. This is 
something that we are watching extremely closely. I think the 
Russian investments in government propaganda in Europe are 
clear for everybody to see, the massive investment that their 
new platform, Sputnik, has made in Germany and France, et 
cetera. Interestingly, there has been quite a public backlash 
in both Germany and France to the kind of propaganda Russia is 
trying to sell, and the market share for that kind of effort 
has not been as big as they hoped. Just as in the United 
States, the market share for Russia today is relatively small 
because people want truth not Kremlin fabrication.
    That said, the more nefarious dirty money sloshing around 
is what you highlight. This question of funding candidates and 
political campaigns out of Kremlin coffers, setting up of false 
NGOs to look like they are representatives of civil society but 
really they are representatives of a foreign government's view, 
we are watching all of this very closely with our allies and 
working together to expose it and make sure that the public in 
those countries knows where this money is coming from.
    Mr. Emmer. The gentlewoman yields back. The Chair now 
recognizes Mr. Ted Poe from Texas.
    Mr. Poe. Thank the chairman.
    Thank you, Ambassador, for being here. Like a lot of folks, 
including you, I am concerned about Russian aggression. The 
Russians go into Georgia in 2008, they take one third of that 
country away from them, and the Russian tanks are still in that 
third and they are not going to leave. The West pontificated 
and said that that was bad, and meanwhile Putin is still there. 
And Russia goes into Crimea, takes over Crimea. Now they are in 
Eastern Europe. I believe when they successfully take over 
eastern Ukraine they will keep moving, maybe to the Baltics.
    Last year when you were here, May 8th, to be exact, I asked 
you the purpose of U.S. sanctions. And the question, and I have 
the transcript here if you want to see it, was is the purpose 
of our sanctions to stop the Russians or is the purpose of our 
sanctions to make the Russians leave Crimea? And you answered 
that the purpose of our sanctions was to make the Russians 
leave Crimea. Is that still the purpose of sanctions against 
Russia regarding Crimea? To make them leave?
    Ambassador Nuland. Yes, sir. We want Crimea restored to 
Ukraine. We have designated sanctions vis-a-vis Crimea which as 
you know we deepened significantly in December, essentially 
denying U.S. companies the ability to invest in Crimea. Our 
European partners have done the same. We talked a little bit 
earlier in the hearing about the impact that that has had in 
Crimea and we will continue to keep those in place unless and 
until----
    Mr. Poe. So are the Russians leaving Crimea?
    Ambassador Nuland. It has not resulted in changing Russian 
policy. It has driven up the price for Crimea for the Russian 
coffers.
    Mr. Poe. Well, that may be the sanctions. It may also be 
the world price of oil has dropped, which is the main reason 
for the Russian economy.
    Are the Russians building military installations in Crimea?
    Ambassador Nuland. Well, as you know the Russians have had 
bases historically in Crimea.
    Mr. Poe. Are they building more?
    Ambassador Nuland. There is significant evidence to 
indicate that they are putting new improvements into those 
bases and new equipment. We can get you a classified briefing 
if you would like.
    Mr. Poe. So the sanctions at least haven't stopped Russian 
building of military installations in Crimea. Are any of those 
installations nuclear installations?
    Ambassador Nuland. I think we would like to speak to you 
about dual-use capability in a different setting, if I may.
    Mr. Poe. Anyway they are building up their military 
presence in Crimea.
    Ambassador Nuland. Yes, sir.
    Mr. Poe. That would seem to me like they are there to stay. 
What do you think?
    Ambassador Nuland. I think we have to maintain the pressure 
and we have to maintain the cost. And we have to keep faith 
with Ukraine so that it can continue to try to get its 
territory back.
    Mr. Poe. Well, when I talked to the President of Ukraine 
last year asking what we could do, he replied, paraphrasing, 
that they would prefer that we send something other than canned 
food to them, MREs, which is what we were doing. Are we still 
talking about helping them fight for their own freedom in the 
sense that we are giving them military aid? Are we still 
talking about that or are we actually doing that?
    Ambassador Nuland. Sir, we have over the last 14 months 
provided $118 million in security assistance. I can give you a 
rundown of what we have bought with that, but it includes 
things like counterfire radar batteries, communications 
equipment, counter jamming, full suite of emergency medical, 
all those kinds of things, training. And we will continue to 
look at what more we can do.
    Mr. Poe. That is all non-lethal aid. We sending them any 
guns, bullets?
    Ambassador Nuland. No, sir.
    Mr. Poe. Why not? That is what they want to defend 
themselves.
    Ambassador Nuland. As I said, we have continued to look at 
other requests from the Ukrainians including on the lethal side 
but no decisions have been made.
    Mr. Poe. So the Russians are now in eastern Ukraine besides 
being in Crimea, which I do not think they are going to ever 
try to leave Crimea. Other nations, and I am meeting some 
Ambassadors today, are they concerned that they are next in the 
Russian aggression? What is our policy regarding Russian 
aggression, whether it is the Baltics or whether it is other 
countries of the former Soviet Union? What is our policy to 
thwart that? If we do have a policy.
    Ambassador Nuland. Well, Congressman, I didn't go through 
it in length in this testimony. I have in past testimonies. But 
we are, with regard to NATO allies, starting with the decisions 
taken at the Wales Summit in September which you now see 
implemented, we are providing concrete visible reassurance to 
our NATO allies all along the eastern edge on land, sea and 
air.
    We have some 300 young Americans in the Baltics, in Poland. 
We will have new deployments in Bulgaria and Romania. They are 
exercising, et cetera. We are also working with those nations 
to establish headquarters elements that will allow NATO forces 
to move quickly in a contingency. We are standing up a very 
high readiness NATO force. All of this designed----
    Mr. Poe. Are we helping non-NATO countries----
    Ambassador Nuland. We are as well. Just to say all of this 
designed to make it absolutely clear to the Kremlin that we 
will defend every inch of NATO territory and to set a 
deterrent. We are also providing security assistance to Georgia 
and to Moldova, the two countries most under threat, and 
continuing the relationship with other countries in the region.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Emmer. The gentleman's time is expired.
    We appreciate the Ambassador's time this morning. As you 
can tell, the committee is gravely concerned by the situation 
and specifically the dismemberment of Ukraine. We can't wait 
forever. We look forward to following up on these critical 
issues.
    And with that the hearing is adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
